fT

C@OCKLE

2311 Douglas Street

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site

(402) 342-2831
Fax: (402) 342-4850

No. 19-123

SHARONELL FULTON, et al.,
Petitioners,
v.
CITY OF PHILADELPHIA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
SCHOLARS OF THE CONSTITUTIONAL RIGHTS AND INTERESTS OF CHILDREN IN
SUPPORT OF RESPONDENTS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 7760 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

 

My Comm. Exp. September 5, 2023

www.cocklelegalbriefs.com

 

err Kone Q.tlaoe? Qutb Oh. be

Notary Public Affiant

39997
